U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




       PUBLIC RELEASE




BUREAU OF INDUSTRY AND SECURITY


                      Deemed Export Controls
        May Not Stop the Transfer of Sensitive
    Technology to Foreign Nationals in the U.S.


      Final Inspection Report No. IPE-16176—March 2004




      Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                         Final Report IPE-16176

Office of Inspector General                                                                                                    March 2004




                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ..............................................................................................................i


BACKGROUND ............................................................................................................................ 1


OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................................ 7


OBSERVATIONS AND CONCLUSIONS ................................................................................. 10


I. 	 BIS Regulations and Policies Could Enable Foreign Nationals from Countries and                  

     Entities of Concern to Access Otherwise Controlled Technology ......................................... 10

        A. EAR exemptions eliminate a large number of foreign nationals from dual- use export 

             controls ............................................................................................................................10

        B. 	 Confusion exists over what is meant by “use” of EAR-controlled equipment by foreign 

             nationals ...........................................................................................................................14

        C. 	 BIS’ deemed expor t control policy does not take into account all the nationalities a 

             foreign national has ever maintained. ................................................................................16

        D. BIS has approved deemed export licenses for foreign nationals from Iran and Iraq 

             despite a “presumption of denial” policy. ..........................................................................17

II. 	 BIS’ Expanded Efforts to Raise Awareness of Deemed Export Control Regulations 

      Could Be Enhanced by Refocusing Outreach and Clarifying Information ............................ 20

        A. BIS substantially increased its deemed export outreach efforts in fiscal year 2003, but 

             targeted a limited audience. ..............................................................................................20

        B. 	 The EAR supplemental “Questions and Answers” on deemed exports need 

             clarification ......................................................................................................................23

III.    BIS Needs a Deemed Export License Compliance Program............................................... 25

IV. Deemed Export Control Compliance by Commerce Bureaus is Mixed .............................. 27

        A. NIST’s deemed export control policies and procedures need to be strengthened ...............27

        B.	 NOAA lacks adequate deemed export control policies and procedures .............................32


SUMMARY OF RECOMMENDATIONS .................................................................................. 36

APPENDICES .............................................................................................................................. 38

A. List of Acronyms ...................................................................................................................... 38

B. NDAA Reports, Fiscal Years 2000-2003................................................................................. 39

C. BIS’ Response to Draft Report................................................................................................. 40

D. NIST’s Response to Draft Report ............................................................................................ 44

E. NOAA’s Re sponse to Draft Report.......................................................................................... 50

F. Commerce’s Office of the Chief Financial Officer and Assistant Secretary for 

    Administration’s Response to Draft Report............................................................................ 53

ADDENDUM A: SECURITY ISSUES RELATING TO EXPORT CONTROLS AND 

  FOREIGN NATIONAL ACCESS AT NIST ...........................................................................A-1

ADDENDUM B: SECURITY ISSUES RELATING TO EXPORT CONTROLS AND 

  FOREIGN NATIONAL ACCESS AT NOAA.........................................................................B-1

U.S. Department of Commerce                                                               Final Report IPE-16176

Office of Inspector General                                                                          March 2004




                                        EXECUTIVE SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an 8- year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. The NDAA mandates that the
Inspectors General report to the Congress no later than March 30 of each year, until 2007, on the
status of efforts to maintain and improve export controls.

The United States controls the export of sensitive goods and technologies for national security,
foreign policy, antiterrorism, and nonproliferation reasons under the authority of several different
laws. The primary legislative authority is the Export Administration Act of 1979. 1 Under the
act, the Commerce Department’s Bureau of Industry and Security (BIS) administers the Export
Administration Regulations (EAR) by developing export control policies, issuing export licenses,
and enforcing the laws and regulations for dual- use exports.

Export controls of technical data apply to a wide variety of information, including technology
related to the design, development, and use of certain products such as computers,
semiconductors, integrated circuits, lasers, and sensors. According to the EAR, any release to a
foreign national of technology or software subject to the regulations is deemed to be an export to
the home country of the foreign national. These exports are commonly referred to as “deemed
exports,” and may involve the transfer of sensitive technology to foreign visitors or workers at
U.S. private, public or government research laboratories and private companies. In FY 2003 BIS
processed 12,446 export license applications; approximately 846 (7 percent) were for deemed
exports.

To comply with the NDAA’s FY 2004 requirement, the Offices of Inspector General2 agreed to
conduct an interagency review to determine whether current deemed export control laws and
regulations adequately protect against the transfer of controlled U.S. technologies and technical
information to foreign nationals from countries and entities of concern. Within Commerce, we
sought to assess the effectiveness of the dual- use deemed export regulations and policies,
including the implementation of them by BIS, as well as compliance with the regulations by U.S.
industry, academic institutions, and Federal research facilities. We also followed up on prior
OIG findings and recommendations related to deemed exports, as appropriate.

Our specific observations are as follows:




        1
          Although the act last expired on August 21, 2001, the President extended existing export regulations
under Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International
Emergency Economic Powers Act.
        2
          This year’s review included the participation of the Department of Homeland Security’s OIG.


                                                         i
U.S. Department of Commerce                                                           Final Report IPE-16176
Office of Inspector General                                                                      March 2004



BIS Regulations and Policies Could Enable Foreign Nationals from Countries and Entities
of Concern to Access Otherwise Controlled Technology

Some of the deemed export licensing exemptions listed under the EAR as well as BIS’ deemed
export licensing policies may inadvertently affect national security and require further
examination. First, as we noted in our 1999 3 and 2000 4 reports on export controls, several of the
deemed export licensing exemptions outlined in the EAR eliminate a large number of foreign
nationals from the licensing requirements. Specifically, items not subject to the EAR include
publicly available technology and software, that (1) are already published or will be published,
(2) arise during or result from fundamental research, (3) are educational, or (4) are included in
certain patent applications. As such, many foreign students or researchers at U.S. academic
institutions and many Federal research facilities are exempted from the regulations. In addition,
foreign nationals with permanent U.S. resident status are also exempt from the deemed export
licensing requirements.

We previously recommended that BIS work with the National Security Council (NSC) to ensure
that deemed export control policies and regulations are clear so as to eliminate avoidable
loopholes that could deliberately or inadvertently be used by countries or entities of concern to
obtain U.S. equipment or technology subject to export controls. Although BIS raised this issue
with the NSC in 2000, no action has been taken on this matter. Despite the lack of action with
regard to our prior recommendations, we believe it necessary to again raise awareness of these
issues in order to address our congressional mandate to assess the adequacy of current export
controls to prevent the acquisition of sensitive U.S. technology by countries and entities of
concern.

Second, confusion exists over the definition and implementation of controls associated with the
“use” of EAR-controlled equipment by foreign nationals in the United States. According to the
EAR, the term “use” is defined as,

                Operation, installation (including on-site installation), maintenance
                (checking), repair, overhaul, and refurbishing.

As such, some of BIS’ senior licensing officials maintain that for consistency purposes in the
EAR, the word “and” in the definition infers that all of the activities have to be accomplished to
constitute “use.” We disagree. While BIS normally grants approval for a foreign entity to
operate, install, maintain, repair, overhaul, and refurbish a piece of controlled equipment
exported from the United States in order to permit the full range of uses for an export, the same
definition of use does not seem to apply to deemed exports (i.e., foreign nationals “using” the
equipment in the United States.). It is unlikely that one individual would have the responsibility
or be capable of accomplishing all these tasks in most situations. In addition, two of the four

        3
          Improvements Are Needed to Meet the Export Licensing Requirements of the 21st Century, U.S.
Department of Commerce Office of Inspector General, IPE-11488, June 1999.
        4
          Improvements Are Needed in Programs Designed to Protect Against the Transfer of Sensitive
Technologies to Countries of Concern, U.S. Department of Commerce Office of Inspector General, IPE-12454-1,
March 2000.


                                                      ii
U.S. Department of Commerce                                                               Final Report IPE-16176
Office of Inspector General                                                                          March 2004



multilateral control regimes 5 define the term either with an “or,” or without any connector word
(i.e., a bullet listing of the activities). Furthermore, the Defense Technology Security
Administration notes each of the listed activities with the compound conjunction “and/or.” After
discussing this issue at our exit conference, senior BIS officials agreed that the interpretation
should be modified to read “and/or.”

This difference in interpretation is critical in determining how to implement and enforce the
deemed export provisions in the EAR. For instance, the U.S. academic and Federal research
community generally use the fundamental research exemption under the EAR for most of the
research they conduct. However, when controlled equipment is used by foreign nationals at a
U.S. university or Federal research facility it is most likely accompanied by some transmittal of
use or other information or instruction constituting “technology.” While many of the academic
and Federal officials we spoke with had not contemplated the transfer of technology associated
with the “use” of controlled equipment and deemed exports, others contend that the “use” of
controlled equipment in the context of fundamental research is also exempt under the
regulations. However, according to BIS, the technology for the “use” of controlled equipment—
regardless of how it is defined—is subject to the deemed export provisions regardless of whether
the research being conducted with that equipment is fundamental or not. This would mean that
many of the academic and Federal laboratories might need to seek deemed export licenses for
some foreign nationals working with controlled equipment or otherwise restrict their access to
such equipment.

As such, we recommend that BIS modify the definition of “use” in the EAR and then inform the
U.S. academic community, industry, and Federal agencies on the deemed export controls
associated with the technology for the use of the EAR-controlled equipment by foreign nationals.

Third, BIS’ deemed export licensing policy, in contrast to State Department’s, only recognizes a
foreign national’s most recent citizenship or permanent residency. As such, this policy allows
foreign nationals originally from countries of concern to obtain access to controlled dual- use
technology without scrutiny if they maintain current citizenship or permanent resident status
from a country to which the export of the technology would not be controlled. As such, we
recommend that BIS amend its policy to require U.S. entities to apply for a deemed export
license for employees or visitors who are foreign nationals and have access to dual- use
controlled technology if they were born in a country where the technology transfer in question is
EAR-controlled regardless of their most recent citizenship or permanent resident status.

Fourth, despite a general policy of denial for exports to certain terrorist-supporting countries,
BIS approved 78 of 107 deemed export license applications (73 percent) involving foreign
nationals from Iran (76) and Iraq (2) between FYs 2000-2003. BIS officials informed us that its

        5
           The United States is a member of several multilateral regimes concerned with the export of dual-use and
munitions items to countries of concern. Those organizations include the Australia Group (concerned with the
proliferation of chemical and biological weapons), the Missile Technology Control Regime (concerned with the
proliferation of missiles capable of delivering weapons of mass destruction), the Nuclear Suppliers Group
(concerned with nuclear weapons proliferation), and the Wassenaar Arrangement (concerned mainly with the
transfer of conventional weapons).


                                                        iii
U.S. Department of Commerce                                                                 Final Report IPE-16176

Office of Inspector General                                                                            March 2004




justification for approving such licenses—despite a general export prohibition to embargoed
countries6 —is based on a 1997 BIS legal opinion stating that deemed export licenses are
permissible for foreign nationals from Iran and Iraq because the laws prohibiting “exports” to
those two countries did not apply to their respective nationals. However, according to the EAR,
the release of controlled technology to a foreign national “is deemed to be an export to the home
country or countries of the foreign natio nal.” As such, we are concerned that BIS’ legal opinion
does not specifically address the concept of deemed export controls and recommend that BIS
reevaluate its approval of deemed export licenses for foreign nationals from Iran and Iraq to
ensure such approvals are consistent with current deemed export control licensing policies and
procedures (see page 10).

BIS’ Expanded Efforts to Raise Awareness of Deemed Export Control Regulations Could
Be Enhanced by Refocusing Out reach and Clarifying Information

BIS has greatly expanded its efforts to raise awareness of deemed export controls since our
March 2000 report, but two areas still need improvement. First, while BIS greatly expanded its
deemed export outreach activities in FY 2003, it mainly focused on those companies and
industry sectors that currently apply for deemed export licenses rather than those entities that do
not (such as small businesses, defense contractors, and the academic and Federal research
community). Therefore, we recommend that BIS establish a strategic outreach plan for deemed
exports that has annual goals and identifies priority industries, Federal agencies, and academic
institutions that are not currently applying for deemed export licenses.

Second, while BIS offers supplemental questions and answers in the EAR and on its web site to
help exporters better evaluate individual applicability of the deemed export regulations, we
found at least two of the answers provided may be inaccurate or unclear. Therefore, we
recommend that BIS clarify and periodically update the deemed export “Questions and Answers”
in Supplement 1 to Part 734 of the EAR (see page 20).

BIS Needs a Deemed Export Compliance Program

BIS does not perform on-site inspections or reviews of deemed export license holders to ensure
compliance with license conditions. As a result, there is no check on whether deemed export
license holders are complying with license conditions. The EAR allows BIS to further limit a
transaction authorized under an export license by placing conditions on the license itself. For
instance, deemed export license conditions might state “no exposure to [Defense] contracts will
be allowed” or “use of computers [above a certain threshold] must be controlled and monitored
to ensure that only job-related work is performed.” Placement of conditions on a license is an
important part of the interagency export licensing process and offers BIS an additional means of
monitoring certain transactions. However, according to BIS, it does not monitor compliance
with deemed export licenses—including those with conditional approvals from license referral

         6
           On May 22, 2003, the United Nations Security Council issued Resolution 1483 that lifted the
comprehensive United Nations trade sanctions on Iraq, while retaining restrictions on the sale or supply to Iraq of
arms related material. BIS is currently in the process of preparing an amendment to the EAR to reflect Iraq’s
significantly changed status.


                                                          iv
U.S. Department of Commerce                                                                     Final Report IPE-16176

Office of Inspector General                                                                                March 2004




agencies—because it does not have the resources to perform this function. Nevertheless, BIS’
failure to monitor license conditions could degrade the integrity of the interagency licensing
process by, for example, allowing companies to continuously receive deemed export licenses
regardless of whether they comply with license conditions.

In response to prior OIG recommendations related to exporter compliance with license
conditions, BIS plans to develop a “license condition enforcement program” in FY 2005. The
program will reportedly address compliance by export license holders, including deemed.
However, based on our discussions with BIS management, it does not appear that this program
will include any type of on-site verifications or reviews of the license conditions outside of an
official enforcement action. As such, BIS ne eds to develop a compliance program that
effectively evaluates deemed export license holders’ compliance with license conditions and
deemed export regulations (see page 25).

Deemed Export Control Compliance by Commerce Bureaus is Mixed

In an effort to conduct follow-up on prior OIG recommendations related to deemed exports, we
conducted a brief survey at two of Commerce’s scientific agencies—the National Institute of
Standards and Technology (NIST) and the National Oceanic and Atmospheric Administration
(NOAA). Based on discussions with senior officials and an overview of security procedures at
both agencies, we identified some potential weaknesses with regard to deemed exports and
foreign national visitors.

NIST

After our March 2000 review, NIST instituted a written export control policy that attempts to
control foreign national access to controlled technologies. It also provided deemed export
control training to its employees. Despite these efforts, NIST officials maintain that the majority
of its research is fundamental and, therefore, exempt from deemed export controls. However, we
determined that NIST officials were unaware that the technology for the “use” of controlled
equipment during the conduct of fundamental research by foreign nationals is still subject to the
EAR.

During our current survey work, we identified at least one EAR-controlled commodity—a 5-axis
machine tool7 --at NIST’s Manufacturing Engineering Laboratory located in Gaithersburg,
Maryland. It is unclear what foreign nationals may have access to the machine or its operation
manual. (NIST officials estimated that the Manufacturing Engineering Laboratory has
approximately 45 foreign guest researchers at any given time.) Given that NIST is unsure of
what other EAR-controlled equipment may be housed at this or its other facilities, we
recommend that NIST (1) review the equipment on hand in the labs to identify EAR-controlled

         7
           Machine tools cut and form metals or other hard materials with varying degrees of precision. They are
essential to civilian industry, but they have a range of military industrial applications as well. Specifically, they are
useful for manufacturing many types of conventional weapons and vehicles; building nuclear weapons;
manufacturing high-speed centrifuges that can enrich uranium to go into nuclear weapons; and making precision
missile parts.


                                                            v
U.S. Department of Commerce                                                 Final Report IPE-16176

Office of Inspector General                                                            March 2004




equipment, (2) interview managers of labs that have controlled equipme nt to establish what
foreign nationals (if any) use or have access to the equipment, and (3) work with BIS to develop
an effective means to identify when a deemed export license might be required. In addition,
although NIST has provided deemed export training to its employees in the past, we believe that
it should conduct continuous training for all NIST employees that work with EAR-controlled
technology and/or equipment. Finally, we noted that NIST’s new Editorial Review Board
process—which requires a prepublication clearance for all materials to identify sensitive
material—may disqualify them from using the fundamental research exemption in the EAR. We
raised this issue with BIS officials. However, they indicated they would need more information
on NIST’s new process before making a decision as to whether it voids the fundamental research
exemption. As such, we recommend that NIST work with BIS to determine if its Editorial
Review Board process voids the fundamental research exemption in the EAR.

NOAA

NOAA lacks an overall deemed export control policy to effectively monitor foreign national
access to controlled technology despite OIG recommendations to this effect in our March 2000
report and subsequent follow up work in this area. NOAA officials, with the exception of the
National Environmental Satellite, Data, and Information Service, did not believe deemed export
controls apply to them because the majority of their work is fundamental research. However, we
determined that NOAA officials were unaware that the technology for the “use” of controlled
equipment during the conduct of fundamental research by foreign nationals is subject to the
EAR. As a result of this new information, the Deputy Assistant Secretary for International
Affairs indicated that some of NOAA’s facilities might contain controlled equipment which
foreign visitors or guest researchers might have access to.

In response to our past and present concerns, the Deputy Assistant Secretary for International
Affairs was recently tasked with developing NOAA’s deemed export control policies and
procedures. We believe this effort to be a positive first step and look forward to reviewing the
procedures when completed. Once NOAA issues its deemed export policies and procedures, we
recommend that it establish an employee- training program that effectively disseminates its
deemed export policies and procedures. We also recommend NOAA review its equipment
inventory to determine (1) what commodities are EAR-controlled, (2) what foreign nationals
have access to those commodities and whether improved access controls are needed, and (3)
whether a deemed export license may be required. Finally, we recommend that NOAA review
its research and NOAA-sponsored research to determine the applicability of deemed export
controls (see page 27).

In addition, given the potential security vulnerabilities identified at these two Commerce
bureaus, we offer our findings related to this topic in an addendum report (For Official Use
Only) in which we also recommend that the Department’s Office of Security enforce—including
conducting periodic on-site security reviews—its security policies related to foreign national
visitors or guest researchers in Commerce facilities and hold these bureaus accountable.




                                               vi
U.S. Department of Commerce                                                 Final Report IPE-16176

Office of Inspector General                                                            March 2004





In its March 17, 2004, written response to our draft report, the Deputy Under Secretary for
Industry and Security generally agreed to take action on all our recommendations. In addition,
written responses to our draft report from NIST, NOAA, and the Department of Commerce’s
Chief Financial Officer and Assistant Secretary for Administration generally agreed to take
action on our recommendations. However, NIST’s response did take issue with a number of our
observations and conclusions from the draft report. NIST’s specific concerns, as appropriate, are
addressed in the body of the report. Where appropriate, we have made changes to the report and
recommendations in response to comments from the various agencies, and we discuss pertinent
aspects of their responses in appropriate sections of the report. The complete responses from
BIS, NIST, NOAA, and the Department are included as appendixes to this report.




                                               vii
 U.S. Department of Commerce                                                                   Final Report IPE-16176

 Office of Inspector General                                                                              March 2004




                                                 BACKGROUND

 The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
 consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
 Investigation, are required by the National Defense Authorization Act (NDAA) for FY 2000 to
 conduct an 8-year assessment of the adequacy of current export controls and counterintelligence
 measures to prevent countries and entities of concern8 from acquiring sensitive U.S. technology
 and technical information. NDAA mandates that the Inspectors General report to Congress no
 later than March 30 of each year, until 2007, on the status of efforts to maintain and improve
 export controls.

 The United States controls the export of dual- use commodities—equipment and technologies
 that have both military and civilian applications—for reasons of national security, foreign policy,
 antiterrorism, and nonproliferation of weapons, and does so under the authority of several
 different laws, but primarily the Export Administration Act (EAA) of 1979. Under the act, BIS
 administers the Export Administration Regulations (EAR) through development of export
 control policies, issuance of export licenses, and enforcement of the laws and regulations
 governing dual- use exports. Although the act last expired on August 21, 2001, the President
 extended existing export regulations under Executive Order 13222, dated August 17, 2001,
 invoking emergency authority under the International Emergency Economic Powers Act.

 BIS’ Office of Chief Counsel and Office of Administration are involved in some aspects of
 export licensing as well as export enforcement; however, the two operating units principally
 responsible for export controls are Export Administration and Export Enforcement (See table 1).

Table 1: Organizational Structure of BIS’ Principal Export Control Units
                        Office of Exporter Services is responsible for outreach (e.g., educational seminars and
                        conferences) and counseling efforts to help ensure exporters’ compliance with the EAR and
                        coordination of policy within Export Administration. This office is also responsible for
                        monitoring certain license conditions to determine exporters’ compliance with them.
                        Office of Nonproliferation Controls and Treaty Compliance and the Office of Strategic
      Export
                        Trade and Foreign Policy Controls each have a full range of responsibilities associated
   Administration
                        with export licensing. Within the Office of Strategic Trade and Foreign Policy Controls,
                        the Deemed Export and Short Supply Division (hereafter, referred to as the Deemed Export
                        Division) is responsible for processing deemed export licenses.
                        Office of Strategic Industry and Economic Security oversees issues related to U.S.
                        defense industry competitiveness.
                        Office of Export Enforcement investigates alleged export contro l violations and coordinates
                        its enforcement activities with other Federal agencies.
                        Office of Enforcement Analysis is the central point for the collection, research, and analysis of
      Export
                        classified and unclassified information on end users who are of export control concern.
    Enforcement
                        Office of Antiboycott Compliance enforces the anti-boycott provisions of the EAA and the
                        EAR, assists the public in complying with these provisions, and compiles and analyzes
                        information regarding international boycotts.
Source: Bureau of Industry and Security

          8
          For the purpose of our review, the countries of concern include: China, Cuba, India, Iran, Iraq, Israel,
 Libya, North Korea, Pakistan, Russia, Sudan, and Syria.
                                                           1
U.S. Department of Commerce                                                             Final Report IPE-16176

Office of Inspector General                                                                        March 2004





Deemed Export Control Terminology, Rules, and Interpretations

The U.S. government controls not only the export of products, but also of technical data. Export
controls of technical data apply to a wide variety of information, including technology related to
the design and development of certain telecommunications products, computers, semiconductors,
integrated circuits, lasers, and voice, fingerprint, or other identification systems. The term
“technology” itself is broadly defined in the EAR to include instruction, skills training, working
knowledge, consulting services, the transfer of engineering designs and specifications, manuals,
and instructions written or recorded on other media.

Items not subject to the EAR include publicly available technology and software that (1) are
already published or will be published, (2) arise during or result from fundamental research,
(3) are educational, or (4) are included in certain patent applications.

Before 1994 the EAR’s definition of “export of technical data” included “any release of technical
data in the United States with the knowledge or intent that the data will be shipped or transported
from the United States to a foreign country”9 [emphasis added]. However, according to the
former BIS Deputy Chief Counsel, the former Bureau of Export Administration (now BIS) 10
amended this portion of the definition in 1994 to address industry’s request for clearer language.
The definition currently found in the EAR is as follows:

               Any release of technology or source code subject to the EAR to a
               foreign national. Such release is deemed to be an export to the
               home country or countries of the foreign national. This deemed
               export rule does not apply to persons lawfully admitted for
               permanent residence in the United States and does not apply to
               persons who are protected individuals (e.g., a person admitted as a
               political refugee) under the Immigration and Naturalization Act (8
               U.S.C. 1324b(a)(3)). . . . 11

The phrase “Such release is deemed to be an export . . .” more clearly reflects the idea that
foreign nationals may eventually return home and take with them whatever knowledge they have
gained while in the United States. It also more narrowly identifies who is exempt—permanent
residents and protected individuals. Thus the rule applies to all foreign nationals working as
employees of U.S. companies and at research facilities and to any foreign national given access
to controlled U.S. technology including visitors to U.S. companies or students at U.S. academic
institutions. The U.S. entity employing or sponsoring the foreign national is responsible for
submitting a deemed export license application to BIS for review.

Furthermore, “Such release . . .” can occur in many ways. For exa mple, according to the EAR,
technology or software can be considered “released” for export through:

       9
         15 CFR 779.1(b)(1).

       10
          All references to BIS also include those to its predecessor agency—the Bureau of Export Administration. 

       11
          15 CFR 734.2(b)(2)(ii).



                                                       2

U.S. Department of Commerce                                                           Final Report IPE-16176

Office of Inspector General                                                                      March 2004





        •    visual inspection of U.S.-origin equipment and facilities by foreign nationals;
        •    oral exchanges of information in the United States or abroad; or
        •	   the application to situations abroad of personal knowledge or technical experience
             acquired in the United States. 12

In addition, the transfer of technology to a foreign national in the United States for the “design”,
“development,” or “use” of controlled dual- use equipment—regardless of whether it is U.S. or
foreign-origin—is subject to the EAR.

Deemed Export Licensing Process

The EAA authorizes the Secretary of Commerce to issue rules and procedures for processing
dual- use export license applications. Initially, Congress intended that the Secretary of
Commerce would make determinations concerning individual export license applications, to the
maximum extent possible, without referral to any other government department or agency. The
Secretary, in turn, delegated authority to manage the dual-use export licensing process to BIS.
However, in response to the need for more transparency in the dual- use licensing process, the
President issued Executive Order 12981 on December 5, 1995, authorizing the Departments of
Defense, Energy, and State, and the Arms Control and Disarmament Agency each to review any
license application received by Commerce. 13

Although the three referral agencies have provided Commerce with delegations of authority for
certain types of applications based on the level of technology, the appropriateness of the item’s
stated end use, and the country of destination, they receive and review all deemed export license
applications. In addition, given that these applications involve foreign nationals’ access to
sensitive technology in the United States, Commerce refers all deemed export applications to the
FBI for a name check review. The FBI has received derogatory “hits” based on its review of
foreign nationals subject to deemed export license applications.

Commerce also generally refers license applications that potentially involve missile, nuclear,
chemical, or biological proliferation, to the Central Intelligence Agency’s Weapons Intelligence,
Nonproliferation and Arms Controls Center for an end-user review. It should be noted, however,
that since October 2001, that agency has declined to review deemed export license applications
because of the lack of derogatory “hits” they have obtained from this exercise in the past. In an
attempt to conduct some type of intelligence review for these applications, however, BIS has
made other arrangements with the agency. Specifically, the CIA sends BIS an updated CD­
ROM of end-user reports on a monthly basis. BIS licensing officers from the Deemed Export
Division query the database for information on any foreign national associated with the license
application and/or any affiliated entities the foreign national has listed on his résumé (e.g.,
previous employers or universities attended). However, according to BIS officials, they have not
received any derogatory hits against this database since they began this exercise.

        12
           15 CFR 734.2(b)(3).
        13
           The U.S. Arms Control and Disarmament Agency was dissolved on April 1, 1999. Its licensing review
function was moved to the State Department.


                                                      3

U.S. Department of Commerce                                                                          Final Report IPE-16176

Office of Inspector General                                                                                     March 2004





Deemed Export License Statistics

Of the 12,446 export license applications BIS received during FY 2003, approximately 846
(7 percent) were for deemed exports. 14 Of that number, 777 (approximately 92 percent) were
approved, 9 (roughly 1 percent) were rejected, and 60 (about 7 percent) were returned without
action. During FYs 2000 through 2003 the number of deemed export applications decreased 13
percent from 968 to 846, and many of the FY 2003 applications were renewals. Figure 1 depicts
the status of FY 2000 to 2003 deemed export license applications.
Figure 1: Number of Deemed Export License Applications Processed in FYs 2000-2003

                            1000     866
   Number of Applications




                                           826
                                                       777
                             800
                                                 592
                             600

                             400
                                                                                                        196
                             200                                                                   99         110
                                                                                                                    60
                                                                         3    3      4   9
                                 0
                                           Approved                       Rejected              Returned Without Action
                                                              Status of Application
                                                       2000       2001        2002       2003

Source: Export Administration, Bureau of Industry and Security

As is shown in table 2, most of the applications involved technologies categorized under
electronics, computers, and telecommunications and information securit y. 15 Four companies
accounted for more than 60 percent of the applications.




                            14
             While BIS processed 846 license applications as deemed exports, an undetermined number of these did
not qualify as deemed export applications. Specifically, some U.S. exporters inadvertently submitted deemed export
license applications—versus export license applications—for foreign nationals who obtained the controlled
technology abroad instead of in the United States.
          15
             It should be noted that these numbers do not indicate which technologies all foreign nationals working or
visiting the United States are seeking, but only those technologies which have been the subject of a deemed export
license application.


                                                                         4

U.S. Department of Commerce                                                                             Final Report IPE-16176

Office of Inspector General                                                                                        March 2004



Table 2: Deemed Export License Applications, FY 2003
                                                                                                            Number of
 Category                                               Description of Category
                                                                                                           Applications*
                 0                 Nuclear Materials, Facilities, and Equipment                                  0
                 1                 Materials, Chemicals, "Microorganisms," and Toxins                           79
                 2                 Materials Processing                                                         34
                 3                 Electronics                                                                 338
                 4                 Computers                                                                   661
                 5                 Telecommunications and Information Security                                 357
                 6                 Lasers and Sensors                                                            3
                 7                 Navigation and Avionics                                                      10
                 8                 Marine                                                                        0
                 9                 Propulsion Systems, Space Vehic les, and Related Equipment                   80
                                   Classification used for items subject to the Export Administration
  EAR99                                                                                                           3
                                   Regulations that are not on the Commerce Control List
 *Note : Because applications may contain a request to export more than one technology, the numb er of
 applications in this column does not equal the total number of deemed export applications BIS received during
 FY 2003.
Source: Export Administration, Bureau of Industry and Security

We also determined that 716 (or approximately 85 percent) of the 846 deemed export
applications received in FY 2003 were for foreign nationals from countries of concern
(see figure 2).

Figure 2: 	Deemed Export Applications Received for Foreign Nationals from Countries
          of Concern, FY 2003

                             400
                                        367
                             350
                             300
    Number of Applications




                                                                                                         238
                             250
                             200
                             150
                                                      83
                             100
                              50                                   23
                                                                                  2           2                        1
                               0
                                       China        India         Iran          Israel    Pakistan      Russia        Syria

                                                                               Country
Source: Export Administration, Bureau of Industry and Security




                                                                          5

U.S. Department of Commerce                                                           Final Report IPE-16176
Office of Inspector General                                                                      March 2004




Previous OIG Findings and Recommendations Related to Deemed Export Controls

In our June 1999 16 and March 2000 17 reports on export controls, we found that compliance with
deemed export regulations by U.S. companies and federal agencies was low. In addition, we
found that deemed export control regulations were ambiguous and deemed export control policy
ill defined, which we concluded might have accounted for some of the noncompliance. We
therefore recommended in both reports that BIS work with the National Security Council (NSC)
to ensure that the deemed export control policy and regulations are clear and do not provide any
avoidable loopholes that could deliberately or inadvertently be used by countries and entities of
concern to obtain U.S. equipment or technology subject to export controls. While BIS has raised
this issue with the NSC, as we note later in this report, no action has been taken on this matter.

In our 1999 and 2000 reports, we also recommended that BIS be more proactive and increase its
outreach to high-technology companies, industry associations, and federal agencies to educate
them about deemed export regulations and to help ensure their compliance. Our current report
assesses BIS’ actions on this recommendation.




        16
           Improvements Are Needed to Meet the Export Licensing Requirements of the 21st Century, U.S.
Department of Commerce Office of Inspector General, IPE-11488, June 1999.
        17
           Improvements Are Needed in Programs Designed to Protect Against the Transfer of Sensitive
Technologies to Countries of Concern, U.S. Department of Commerce Office of Inspector General, IPE-12454-1,
March 2000.


                                                      6

U.S. Department of Commerce                                                              Final Report IPE-16176

Office of Inspector General                                                                         March 2004





                          OBJECTIVES, SCOPE, AND METHODOLOGY


To comply with NDAA’s FY 2004 requirement, the Offices of Inspector General18 agreed to
conduct an interagency review to assess whether current deemed export control laws and
regulations adequately protect against the transfer of controlled U.S. technologies and technical
information by foreign nationals to countries and entities of concern. (See Appendix B for a list
of our reports conducted under the NDAA from FY 2000 through FY 2003.)

Within Commerce, we sought to assess the effectiveness of the dual- use deemed export control
regulations and policies and their implementation by BIS, as well as compliance with the
regulations by U.S. industry, academic institutions, and Federal research facilities. We also
followed up on prior OIG findings and recommendations from our March 2000 report.

To conduct our program evaluation we interviewed Commerce personnel from several bureaus,
divisions, and offices; Federal and university academicians, administrators, and researchers; and
Federal export control enforcement staff. We also reviewed export control regulations, policies,
and processes in an effort to assess compliance and reasons for noncompliance and to address
issues of confusion related to terminology. At the end of our review, we discussed our findings
and conclusions with BIS’ Under Secretary, Deputy Under Secretary, and other senior BIS
officials.

Interviews. Within Export Administration, we met with the Assistant Secretary and Deputy
Assistant Secretary and the Directors of the Offices of Strategic Trade and Foreign Policy
Controls, Nonproliferation Controls and Treaty Compliance, and Strategic Industries and
Economic Security. Within Export Enforcement, we interviewed the Deputy Assistant Secretary
and the Director of the Office of Enforcement Analysis. We also met with:

       •	    Directors of the Deemed Export Controls Division, Chemical and Biological Controls
             Division, Foreign Policy Controls Division, Nuclear and Missile Technology
             Controls Division, Strategic Analysis Division, and Strategic Trade Division;
       •	    BIS’ staff attorneys;
       •	    Office of Exporter Services staff;
       •     the Director of BIS’ Western Regional Office; and 

       •     other licensing officials. 


Within Commerce we met with officials from the National Institute of Standards and
Technology (NIST)and the National Oceanic and Atmospheric Administration (NOAA) to
follow up on recommendations we made in previous reports related to deemed exports. We also
met with representatives from the Department’s Office of Security.

External to Commerce, we met with officials from the FBI, the State Department’s Bureau of
Economic Affairs and Directorate of Defense Trade Controls, and the Treasury Department’s
Office of Foreign Assets Control to review their roles in preventing the release of controlled

       18
            The Department of Homeland Security’s OIG also participated in this year’s review.


                                                        7

U.S. Department of Commerce                                                            Final Report IPE-16176
Office of Inspector General                                                                       March 2004


technology to foreign nationals. In addition, we met with the Associate Director for Science and
other senior officials at the Office of Science and Technology Policy to discuss the overall
impact and current relevance of the 1985 National Security Decision Directive 189—which
maintains that fundamental research should be unrestricted to the maximum extent possible and
that classification should be the mechanism used to exercise any required controls—on deemed
export controls. We also requested a meeting with the dual-use export control representative at
the NSC to discuss current deemed export controls, but that office declined the meeting.

Reviews. To evaluate BIS’ regulatory, budgetary, and organizational policies and processes
related to deemed export regulations, we reviewed previous and current regulations and policies
governing deemed export controls. We also reviewed previous OIG and General Accounting
Office reports on the subject. In addition, we tried to research the circumstances leading to the
1994 amendment to the deemed export regulations to assess its impact and the influence of
industry and academia that contributed to the current deemed export rule. However, BIS had
very limited information pertaining to this subject.

To review BIS’ implementation of the deemed export regulations, we evaluated Export
Administration’s procedures for processing deemed export licenses. As part of that process, we
reviewed deemed export licenses from FY 2000 to 2003 (through June 16, 2003). However, we
could not fully evaluate 111 licenses we selected for further study because BIS was unable to
provide us with the supporting documentation (e.g., foreign nationals résumés, intelligence
review results, FBI name check results, etc.) due to technical difficulties with the system that
maintains this data. We also assessed BIS’ educational outreach to the business and academic
communities and followed up on its previous outreach efforts to other government agencies.

Assessments. To assess their awareness of deemed exports and discuss their internal control
policies for compliance with deemed export regulations, we interviewed export compliance
officers and/or legal counsels from three major high- technology companies and two defense
contractors. As part of this effort, we obtained information on the number of foreign nationals
from countries of concern that visited and/or worked at these facilities between FYs 2000 and
2002. We also talked with members of BIS’ Regulations and Procedures Technical Advisory
Committee 19 and with members from a major trade association to obtain their views on the
effectiveness of the current dual- use deemed export regulations.

To assess academic institutions’ compliance with deemed export regulations, we visited and held
discussions with appropriate officials from the following nine major academic institutions across
the country to assess their knowledge of the deemed export regulations and obtain the ir feedback
regarding the EAR’s fundamental research exemption:

        •    California Institute of Technology (including the Jet Propulsion Laboratory)
        •    Carnegie Mellon University
        •    Emory University

        19
            The Regulations and Procedures Technical Advisory Committee is composed of industry and
government representatives who advise and assist BIS in the implementation of the EAR and on any necessary
revisions to the regulations.


                                                       8

U.S. Department of Commerce                                                  Final Report IPE-16176

Office of Inspector General                                                             March 2004



       •   Georgia Institute of Technology
       •   Johns Hopkins University (including the Applied Physics Laboratory)
       •   Massachusetts Institute of Technology (including Lincoln Laboratory)
       •   Stanford University
       •   University of California at Berkeley
       •   University of Maryland at College Park

We also reviewed university policies and, to a limited extent, research contracts to determine
whether sufficient information regarding compliance with deemed export regulations was
included.




                                                9

U.S. Department of Commerce                                                  Final Report IPE-16176

Office of Inspector General                                                             March 2004





                              OBSERVATIONS AND CONCLUSIONS



I. 	   BIS Regulations and Policies Could Enable Foreign Nationals from Countries and
       Entities of Concern to Access Otherwise Controlled Technology

Some of the EAR’s broadly applied exemptions as well as BIS’ deemed export licensing policies
may offer means to circumvent deemed export regulations and, as a result, affect national
security. As we noted in our 1999 and 2000 reports, several of the deemed export licensing
exemptions outlined in the EAR eliminate a large number of foreign nationals in the United
States from licensing requirements. In addition, while BIS maintains that the technology for the
“use” of controlled equipment is subject to the deemed export provisions regardless of whether
the research being conducted with that equipment is fundamental or not, we noted confusion
within the Federal government as to how the term “use” is defined. How “use” is interpreted is
critical in determining how to implement and enforce this particular deemed export provision.
Furthermore, from our discussions about deemed export controls with leading U.S. academic
institutions and Federal research agencies, we learned that most had not thought about the
transfer of technology involved in the “use” of controlled equipment in the context of deemed
exports.

BIS’ deemed export licensing policy also only recognizes the most recent citizenship or
permanent residency of a foreign national, regardless of his/her homeland. As such, this policy
allows foreign nationals originally from countries of concern to obtain controlled dual- use
technology without scrutiny if they are current citizens or permane nt residents from a country
where the technology would not be controlled. Finally, we found that despite a general policy of
denial for exports to certain terrorist supporting countries, BIS issues deemed export licenses to
foreign nationals from Iran and Iraq.


A. 	   EAR exemptions eliminate a large number of foreign nationals from dual-use export
       controls

Several of the deemed export licensing exemptions outlined in the EAR eliminate a large number
of foreign nationals from deemed export licensing requirements. As stated earlier, exemptions
apply to publicly available technology and software that (1) are already published or will be
published, (2) arise during or result from fundamental research, (3) are educational, or (4) are
included in certain patent applications. In addition, foreign nationals with permanent resident
status are exempt from the deemed export licensing requirements. Our concern is that each of
these issues may identify areas of vulnerability.

•	 Publishability. Research that is intended for publication, whether it is ever accepted by a
   scientific journal or not, is exempt from the regulations. As such, if a foreign graduate
   student from a country of concern—such as China—works with a U.S. researcher on the
   dengue fever virus, no deemed export license is required as long as the U.S. researcher
   intends to publish the research results. While we understand that a researcher’s ultimate goal


                                                10

U.S. Department of Commerce                                                                 Final Report IPE-16176

Office of Inspector General                                                                            March 2004



    is to publish his/her work, anyone could claim to intend to publish research but ultimately
    decide not to for various reasons.

    Although not in the context of deemed exports, the scientific community itself (especially
    with regard to biotechnology) is struggling with the publishability issue as it relates to
    national security. Specifically, since September 11, 2001, the U.S. scientific community has
    been debating whether researchers and publishers should start censoring research results if
    publication of those results could allow misuse by terrorists. Some scientific journals are
    beginning to screen out the publication of research results if they deem that the risk of misuse
    outweighs potential scientific benefit.

    For instance, while the American Society for Microbiology does not support unwarranted
    restrictions on the free flow of legitimate scientific communications within microbiology that
    could lead to valuable advances in biomedical science, according to testimony before the
    House Committee on Science, it has adopted specific policies and procedures for its
    journals 20 to provide a degree of careful scrutiny in the peer review process for submitted
    manuscripts dealing with certain biological agents. Essentially, this review seeks to
    determine if an article contains details of methods or materials that might be misused. At the
    American Association for the Advancement of Science’s annual meeting in February 2003,
    the President of the American Association for Microbiology noted that an example of a study
    that probably would not get published would involve “…a study that tinkers with a pathoge n
    such as anthrax to make it more deadly.”21

    While we believe these are positive steps in protecting the release of unclassified but
    sensitive and potentially dangerous research results, these are “back-end” measures that may
    come too late to protect sensitive and possibly export-controlled information if a foreign
    national from a country of concern was a part of the team conducting the research. As such,
    researchers—both in the academic and Federal community—need to review the subject of
    their research “upfront” to determine its sensitivity and potential applicability to deemed
    export controls.

•	 Fundamental Research. National Security Decision Directive 189, dated September 21,
   1985, establishes the national policy for controlling the flow of science, technology, and
   engineering information produced by federally funded fundamental research at colleges,
   universities, and laboratories. Some of the fundamental research areas these academic
   institutions and Federal laboratories work on include nuclear engineering, lasers, sensors,
   ceramics, radar, and virology. The principle set out by the 1985 directive maintains that the
   results of fundamental research should be unrestricted to the maximum extent possible and
   that classification should be the mechanism for what control might be required. This policy
   was more recently upheld in a November 1, 2001, memorandum from the Assistant to the

         20
             The American Association for Microbiology publishes eleven scientific journals focusing on distinct
specialties within the microbiological sciences, including Infection and Immunity, Journal of Bacteriology, and
Journal of Virology.
          21
             Nature, “Biologists Undertake Bioterror Surveillance: Scientists and journals agree to watch for risky
research,” February 16, 2003.


                                                         11

U.S. Department of Commerce                                                    Final Report IPE-16176
Office of Inspector General                                                               March 2004


   President for National Security Affairs to a think tank representative. Specifically, the memo
   stated:

               The key to maintaining U.S. technological preeminence is to
               encourage open and collaborative basic research. The linkage
               between the free exchange of ideas and scientific innovation,
               prosperity, and U.S. national security is undeniable. This linkage
               is especially true as our armed forces depend less and less on
               internal research and development for the innovations they need to
               maintain the military superiority of the United States . . .. The
               policy on the transfer of scientific, technical, and engineering
               information set forth in NSDD-189 shall remain in effect, and we
               will ensure that this policy is followed.

   However, as we reported in our March 2000 report, we are concerned that the classification,
   or definition, of fundamental research may be vague and unclear. According to the EAR,
   fundamental research is defined as

               . . . basic and applied research in science and engineering where
               the resulting information is ordinarily published and shared
               broadly within the scientific community. Such research can be
               distinguished from proprietary research and from industrial
               development, design, production, and product utilization, the
               results of which ordinarily are restricted for proprietary reasons or
               national security reasons. [Emphasis added].

   While this definition is broadly accepted within the Federal government and the academic
   community, neither the government nor academic representatives we met with could clearly
   classify “basic” or “applied” science as compared to “developmental.” Developmental
   research is generally the third stage in research and development activities (coming after
   basic and applied research) and is defined by the Office of Management and Budget’s
   Circular A-11 as the:

               Systemic application of knowledge toward the production of useful
               materials, devices, and systems and methods, including the design,
               development, and improvement of prototypes and new processes to
               meet specific requirements.

   As such, this type of research is not normally published or shared and, therefore, not
   considered “fundamental.” It should be noted that a number of the above officials we spoke
   with defined “applied” science as “developmental.”

   However, deciding whether research is “basic,” “applied,” or “developmental” does not
   appear to be the deciding factor for either the academic community or Federal laboratories in
   determining whether research qualifies as “fundamental.” Instead, the decision rests more on
   the “publishability” of the research and whether there are any restrictions placed on it; if


                                                12

U.S. Department of Commerce                                                   Final Report IPE-16176

Office of Inspector General                                                              March 2004



   there are no restrictions placed on the publication of the research, these individuals classify
   their research as “fundamental.”

•	 Educational. Educational information is exempt from the regulations if it is released as
   instruction in catalog courses and associated teaching laboratories of academic institutions.

   For example, a course on design and manufacture of high-performance machine tools would
   not be subject to the EAR if taught to foreign nationals as part of a university graduate
   course. However, this same information, if taught as a proprietary course by a U.S. company
   to foreign nationals, would require a license because the company does not qualify as an
   “academic institution.”

•	 Foreign Nationals with Permanent Resident Status . As mentioned earlier in this report,
   prior to 1994, the definition of “export of technical data” in the EAR included “. . . any
   release of technical data in the United States with the knowledge or intent that the data will
   be shipped or transported from the United States to a foreign country.”22 However, in a 1994
   change to clarify this language for industry, BIS amended this portion of the definition to the
   following:

                  Any release of technology or source code subject to the EAR to a
                  foreign national. Such release is deemed to be an export to the
                  home country or countries of the foreign national. This deemed
                  export rule does not apply to persons lawfully admitted for
                  permanent residence in the United States . . .. 23

   The rationale for eliminating foreign nationals with permanent resident status from deemed
   export controls appears to have been that persons who hold such status have made a
   commitment to the United States and most likely will not return home. However, it should
   be noted that a foreign national may hold permanent resident status indefinitely and never
   become a U.S. citizen and is under no requirement to do so. In addition, given the fact that
   there are no travel restrictions placed on permanent residents, these individuals could travel
   back and forth to their home country with controlled technology without any monitoring by
   the U.S. government.

Despite the lack of action with regard to our previous recommendations in this area, we believe
that it is necessary to again raise the awareness of these issues in order to address our
congressional mandate to assess the adequacy of current export controls to prevent the
acquisition of sensitive U.S. technology by countries and entities of concern. However, due to
the fact that BIS cannot address these policy issues alone, we believe that BIS should work with
the Congress and/or the NSC to address them.




       22
            15 CFR 779.1(b)(1) (1994).

       23
            15 CFR 734.2(b)(2)(ii) (2003). 



                                                 13

U.S. Department of Commerce                                                               Final Report IPE-16176
Office of Inspector General                                                                          March 2004


B. 	    Confusion exists over what is meant by “use” of EAR-controlled equipment by foreign
        nationals

Technology and technological data involved in operating equipment included on the Commerce
Control List (CCL) is subject to the deemed export provisions of the EAR. For example,
because of their use related to chemical and biological warfare and anti-terrorism, the
technologies associated with a fermenter having a 20- liter, or larger, capacity are controlled by
inclusion on the CCL under Export Control Classification Number (ECCN) 2E301. According
to the EAR, “use” of equipment included on the Commerce Control List is defined as:

                 Operation, installation (including on-site installation),
                 maintenance (checking), repair, overhaul and refurbishing. 24

As such, some of BIS’ senior licensing officials maintain that for consistency purposes in the
EAR, the word “and” in the definition infers that all of the activities have to be accomplished to
constitute “use.” We disagree.

First, we believe the definition could be interpreted as simply a listing of the various activities
associated with the term “use” which does not require that each activity be accomplished to
constitute use. Second, although BIS normally grants approval for a foreign end user to operate,
install, maintain, repair, overhaul, and refurbish a piece of controlled equipment exported from
the United States in order to permit the full range of uses for an export, the same definition of use
does not seem to apply to deemed exports (i.e., foreign nationals “using” the equipment in the
United States.). It is unlikely that one individual who has access to the technology for the use of
a controlled piece of equipment—as is the case with a deemed export—would have the “know­
how” and be assigned the responsibility for undertaking all six of these tasks.

BIS officials were unable to provide us any documents discussing the origin of the EAR
definition or what the original intent of the definition may have been. To expand our search for
source documentation, we reviewed the control lists from the four multilateral regimes
concerned with the export of dual- use and munitions items to countries of concern, 25 but we
found that even these regimes were split as to how the term “use” is defined. Specifically, the
commodity lists for the Wassenaar Arrangement and the Nuclear Suppliers Group offer the same
definition as the CCL. However, the Australia Group and the Missile Technology Control
Regime define the term either with an “or,” or without any connector word (i.e., as a bullet list of
the activities). All of these lists, we should note, are focused on regular exports rather than
deemed exports.



        24
            15 CFR 772.
        25
            The United States is a member of several multilateral regimes concerned with a variety of issues. The
four concerned with dual-use and munitions items are the Australia Group (concerned with the proliferation of
chemical and biological weapons), the Missile Technology Control Regime (concerned with the proliferation of
missiles capable of delivering weapons of mass destruction), the Nuclear Suppliers Group (concerned with nuclear
weapons proliferation), and the Wassenaar Arrangement (concerned mainly with the transfer of conventional
weapons).


                                                        14

U.S. Department of Commerce                                                     Final Report IPE-16176

Office of Inspector General                                                                March 2004



Given the Defense Technology Security Administration’s role in the interagency licensing
process, we asked how it interprets the term “use.” According to its interpretation, “. . . the ‘use’
term means operation and/or installation (including on-site installation) and/or maintenance
(checking) and/or repair and/or overhaul and/or refurbishing.” [Emphasis added.] After
discussing this issue at our exit conference, senior BIS officials agreed that the interpretation
should be modified to read “and/or.”

How “use” is interpreted is critical in determining how to implement and enforce the deemed
export provisions in the EAR. For instance, as we noted in our March 2000 report, the U.S.
academic and Federal research communities generally consider most of the research they
conduct to be exempt from export controls because of the EAR fundamental research exemption.
However, when foreign nationals are given access to equipment at a U.S. university or Federal
research facility, that equipment may be accompanied by some transmittal of use or other
information or instruction constituting controlled technology. From our discussions about
deemed export controls with some of the leading U.S. academic institutions and Federal research
agencies, we learned that most had not thought about the transfe r of technology for the “use” of
controlled equipment in the context of deemed exports. (Further discussion on this issue, as it
relates to NIST and NOAA, is provided in Chapter Four of this report.) Other academic
representatives we met with contend tha t in the context of fundamental research, technology
relating to the “use” of controlled equipment is also exempt under the EAR fundamental research
exemption. However, according to BIS, technology relating to controlled equipment—
regardless of how “use” is defined—is subject to the deemed export provisions even if the
research being conducted with that equipment is fundamental. This would mean that many of
the academic and Federal laboratories or other institutions would need to seek deemed export
licenses for some foreign nationals working with controlled equipment or otherwise restrict their
access to such equipment.

In relation to our fermenter example (above), we noted that at least two of the nine academic
institutions we visited have state-of-the-art fermentation facilities (one housing a 250- liter
fermenter and the second a 300- liter fermenter). These fermentation facilities are usually
accessible to any university student, researcher, or employee and, in some cases, to the private
sector. However, using BIS’ current interpretation of “use”—that all activities listed in the
definition must be undertaken—the objective of technology control associated with this or other
EAR-controlled equipment becomes almost unobtainable.

RECOMMENDATIONS : BIS should modify the definition of “use” in the EAR in order to help
licensing and enforcement officials better implement and enforce deemed export controls
associated with the technology for the use of controlled equipment. Once this effort has been
completed, BIS should inform the U.S. academic community, industry, and Federal agencies of
the deemed export controls associated with the technology for the use of EAR-controlled
equipment by foreign nationals.



In its written response to our draft report, BIS stated that it is prepared to work with the Office of
Chief Counsel for Industry and Security as well as the Departments of Defense and State to


                                                  15

U.S. Department of Commerce                                                                Final Report IPE-16176
Office of Inspector General                                                                           March 2004


determine whether the current definition of “use” technology should be revised in the EAR and
whether this definition in the multilateral export control regimes should be harmonized. It
further stated that if the agencies agree to revise the regulation, BIS will publish the regulatory
revision and incorporate it into outreach to government agencies, industry, and universities to
ensure that there is a common interpretation and correct application of this term as it relates to
deemed exports. In addition, BIS stated that future outreach efforts will make clear that
technology for the “use” of controlled equipment is subject to licensing requirements even if the
research being conducted with that equipment is fundamental. To assure wider distribution of
this information to the general exporting community, BIS stated that it will modify the generic
“use” technology presentation currently used in its export control seminars to clarify the term
and when license requirements are triggered for deemed exports.


C. 	    BIS’ deemed export control policy does not take into account all the nationalities a
        foreign national has ever maintained.

According to senior BIS officials and guidance provided on its web site, 26 BIS’ deemed export
licensing policy only recognizes a foreign national’s most recent citizenship or permanent
residency. Thus foreign nationals who are citizens or permanent residents of countries not
designated as countries of concern and, therefore, not subject to licensing requirements, can gain
access to controlled dual- use technology without scrutiny regardless of their country of origin.
For example, a person born in Iran who is currently a citizen of Canada would be categorized as
Canadian according to the EAR even if she/he maintained dual citizenship as an Iranian. In this
instance, given that most exports to Canada are not controlled, 27 a deemed export license would
not be required for this foreign national.

By not requiring employers to obtain export licenses in this type of situation, foreign nationals
who originate from countries of concern and have access to controlled dual- use technology are
able to bypass the extensive screening process required of a deemed license application.
Comparatively, if that same foreign national came directly to the United States from Iran on an
H1-B visa 28 with the intent of working on controlled dual-use technology, the U.S. employer
would be required to apply for a BIS deemed export license for that particular foreign national.

BIS’ policy contrasts with that of the State Department’s Directorate of Defense Trade Controls,
which requires export license applications involving munitions to include all current nationalities
for all foreign national employees expected to receive defense services and technical data. As
such, State prescribes that a person born in Syria, who later becomes a citizen or permanent
resident of Canada while retaining his Syrian citizenship, should be regarded as both Syrian and
Canadian.

        26
             See http://www.bis.doc.gov/deemedexports/deemedexportsfaqs.html (January 6, 2004).
        27
             The EAR maintains limited controls for exports to Canada, including items controlled for chemical and
biological weapons concerns and for items, such as shotguns and optical sighting devices, that fall under the
jurisdiction of the 1997 Organization of American States firearms convention.
          28
             High-technology visas are issued under the H1-B visa category. H1-B is a temporary visa category,
which is valid for three years and can be extended for another three. This category includes specialty occupations,
such as architects, engineers, doctors, college professors, and computer programmers.


                                                        16

U.S. Department of Commerce                                                    Final Report IPE-16176

Office of Inspector General                                                               March 2004





In a 1998 memorandum to the then-Assistant Secretary for Export Administration, State
recommended that BIS amend the dual- use export regulations to follow its policy of noting dual
citizenship. Specifically, State recommended that “place of birth be taken into consideration
when reviewing applications” because “nationals from state sponsors of terrorism may travel on
European passports or have multiple nationalities.” BIS could not tell us whether it had
responded to State’s memo; however, its policy remained unchanged.

RECOMMENDATION : BIS should amend its current policy to require U.S. entities to apply for a
deemed export license when a foreign national employee or visitor was born in a country where
the technology in question is EAR-controlled.



In its written response to our draft report, BIS stated that it is prepared to consider modifying the
current policy of only recognizing a foreign national’s most recent country of permanent
residency or citizenship for purposes of determining deemed export license requirements.
However, BIS noted that its current policy reflects the traditional understanding that citizenship
denotes a substantial personal connection to a given country. In addition, BIS noted that its
current licensing practice includes conducting a thorough review of the foreign national’s
contacts (personal, professional, financial, and employment-related). However, it stated that it
would conduct an internal review with the Office of Chief Counsel for Industry and Security to
determine whether there are any legal impediments or any inappropriate policy outcomes that
should be considered if BIS were to modify its current policy on this matter. We acknowledge
BIS’ efforts to further examine this matter, and we look forward to reviewing a copy of its
internal review upon completion.

It should also be noted that in its written response to our draft report, NIST took issue with our
recommendation for BIS to amend its policy to require U.S. entities to apply for a deemed export
license for foreign national employees or visitors who have access to dual- use technology if they
were born in a country where the technology transfer in question is EAR-controlled.
Specifically, it stated that our recommendation could be interpreted to include naturalized
citizens of the U.S., particularly those who were born in a sensitive country. However, if a
foreign national becomes a naturalized citizen of the United States, they are no longer considered
a foreign national, but rather a U.S. citizen (and the EAR controls involving the transfer of
technology to such an individual no longer apply). In the NIST example cit ed, the Libyan who is
a naturalized British citizen, is, on the other hand, still considered a foreign national and the
controls related to the transfer of EAR-controlled technology do apply.


D. 	   BIS has approved deemed export licenses for foreign nationals from Iran and Iraq
       despite a “presumption of denial” policy.

From FY 2000 through June 16, 2003, BIS approved 78 of 107 deemed export license
applications (73 percent) involving foreign nationals from Iran (76) and Iraq (2) (see figure 3).



                                                 17

U.S. Department of Commerce                                                                    Final Report IPE-16176

Office of Inspector General                                                                               March 2004



The controlled technology involved was classified as, mainly, electronics, computers, and
telecommunications items.

   Figure 3: Number of Deemed Export Licenses Approved to Iran and Iraq

                            40                       36
       Number of Licenses




                            35
                            30
                            25      21
                                                                                                              Iran
                            20
                                                                                                              Iraq
                            15                                           10                9
                            10
                             5                             2
                                         0                                      0               0
                             0
                                     2000              2001                  2002           2003
                                                               Fiscal Year          (through June 16, 2003)


  Source: Export Administration, Bureau of Industry and Security

According to the EAR, licenses for nearly all exports to Iran and Iraq 29 are subject to a general
export prohibition to embargoed countries and to a general policy of denial for specific
technologies. A few exceptions are allowed for items such as medical supplies and agricultural
products.

In 1997 the former BIS Deputy Chief Counsel issued a legal opinion stating that deemed export
licenses are permissible for foreign nationals from Iran and Iraq because the laws 30 prohibiting
exports to those two countries did not apply to their respective nationals in the United States.
Specifically, in referencing deemed exports related to Iranian nationals, the legal opinion further
states that:

                                 It seems beyond argument that a statutory requirement to deny
                                 licenses for any export to Iran has a plain meaning that does not
                                 encompass the release of technical data to someone outside of Iran
                                 when the release is made without knowledge that the recipient
                                 intends to take or send the data to Iran.

However, quoting BIS’ current definition of deemed exports, the release of controlled
technology to a foreign national “is deemed to be an export to the home country or countries of



                    29
             On May 23, 2003, the Department of Treasury’s Office of Foreign Assets Control issued a general
license for exports of goods and technology to Iraq that, in effect, suspended the economic embargo that had been
instituted by Presidential Executive Order 12722, dated August 2, 1990.
          30
             The Iraq Sanctions Act of 1990 (P.L. 101-513) imposed trade sanctions against Iraq; the Iran-Iraq Arms
Non-Proliferation Act of 1992 (P.L. 102-484) applied the Iraqi sanctions to Iran.


                                                                   18

U.S. Department of Commerce                                                    Final Report IPE-16176
Office of Inspector General                                                               March 2004


the foreign national.”31 As such, we are concerned that BIS’ 1997 legal opinion, still currently in
use, fails to recognize the concept and objectives of deemed export controls.

RECOMMENDATION : BIS should reevaluate its approval of deemed export licenses for foreign
nationals from Iran and Iraq to ensure such approvals are consistent with relevant law and
current deemed export control licensing policies and procedures.



In its response to our draft report, BIS stated that its current deemed export control policies and
procedures are consistent with applicable statutes. Specifically, BIS stated that it interprets the
Iran Sanctions Act of 1990 and the Iran-Iraq Non-Proliferation Act of 1992 as prohibiting
transfers of controlled technology in the United States only in situations where there is
knowledge or intent that the technology will be provided to Iran and Iraq. It further stated that
deemed exports frequently involve situations when no such knowledge or intent is present, and,
in these cases, BIS has the discretion to approve deemed export license applications to Iraqi or
Iranian nationals.

With regard to BIS’ statement concerning “knowledge or intent” in the case of Iranian and Iraqi
nationals, we maintain that BIS’ current deemed export control rule no longer reflects the
“knowledge and intent” standard, as it did before 1994. Instead, BIS’ deemed export control rule
states that the release of controlled technology is “deemed to be an export” to the foreign
national’s home country or countries regardless of whether there is knowledge or intent that the
foreign national will return home with the technology.

In addition, while we acknowledge BIS’ discretion to approve deemed export license
applications to Iraqi and Iranian nationals, we want to remind BIS that, according to the EAR,
export applications to Iran and Iraq are subject to a general policy of denial. As such, while BIS
has the authority to approve deemed export license applications involving Iraqi and Iranian
nationals, we are concerned that a 73 percent approval rate may not be in accordance with the
EAR.




       31
            15 CFR 734.2(b)(2)(ii)


                                                 19

U.S. Department of Commerce                                                                   Final Report IPE-16176
Office of Inspector General                                                                              March 2004




II. 	                   BIS’ Expanded Efforts to Raise Awareness of Deemed Export Control Regulations
                        Could Be Enhanced by Refocusing Outreach and Clarifying Information

BIS has greatly expanded its efforts to raise awareness of deemed export control regulations
since our March 2000 report. Within this issue, however, we found two areas that still need
improvement. First, although BIS increased its deemed export outreach activities in FY 2003, it
mainly focused on those companies and industry sectors that currently apply for deemed export
licenses rather than those entities that do not (such as small businesses, defense contractors, and
the academic and Federal research community). Second, while the EAR offers supplemental
questions and answers to help exporters better evaluate individual applicability of the deemed
export regulations, we found at least two of the answers provided may be inaccurate or unclear

A. 	                    BIS substantially increased its deemed export outreach efforts in fiscal year 2003, but
                        targeted a limited audience.

The BIS Office of Strategic Trade and Foreign Policy Controls began implementing a deemed
export outreach program in November 2002, visiting a variety of entities involved with
technologies and equipment subject to deemed export controls. According to BIS, the intent of
its program is to “ensure full compliance with the deemed export regulatory requirements.”
From November 2002 through September 2003, the Deemed Export Division reportedly
conducted 43 specific deemed export outreach events (38 visits and 5 seminars). The events,
however, were primarily focused on a limited audience (see figure 4 for a breakout), and it
should be noted that the total includes multiple visits to some of the same U.S. entities to update
them on proposed changes to deemed export license conditions. While updating knowledgeable
entities on deemed export licensing requirements facilitates continuing education, it does not
expand educational outreach to those not currently aware of or complying with the requirements.

Figure 4: Export Administration Deemed Export Outreach Activities Claimed for FY 2003
                       16
                                 14
                       14
    Number of Visits




                       12                                         9
                       10
                                                 7
                        8
                                                                                              5
                        6                                                             4                      4
                        4
                        2
                        0
                            Companies and    Industry       Department of       U.S.      BIS Export      Human
                              Research      Associations     Commerce        Government     Control      Resource
                               Groups                         Technical       Agencies     Outreach      Groups*
  *Industry groups and associations                           Advisory                     Seminars
  representing human resource officials                      Committees
  responsible for processing foreign
                                                     Types of U.S. Entities Visited
  national employees.
Source: Export Administration, Bureau of Industry and Security


                                                                      20

U.S. Department of Commerce                                                              Final Report IPE-16176

Office of Inspector General                                                                         March 2004





During FY 2003, BIS met with several large companies, Commerce Technical Advisory
Committees, and trade associations primarily associated with the semiconductor industry. BIS
admittedly focused on the semiconductor industry because it accounts for 78 percent (661)32 of
the approximately 846 deemed export license applications processed in FY 2003. In addition,
while BIS reported that it met on four occasions with other Federal agencies, only two of these
visits, to the Department of Energy and to NOAA, involved deemed export education. The other
visits involved discussions with other license referral agencies about the deemed export licensing
process.

BIS currently lacks an overall written strategy to identify other U.S. entities that may employ or
host foreign nationals. However, license application data suggest that many industries (including
chemical and biotechnology), academic institutions, and Federal research facilities that may
employ or host foreign nationals are not applying for deemed export licenses.

Another industry sector not historically targeted by BIS for deemed export outreach is the small
business community. One large semiconductor company we met with claimed that several small
semiconductor companies should be applying for deemed export licenses but lack the resources
or knowledge of export controls. In addition, representatives from large companies stated that
many of the smaller companies are not aware of deemed export requirements because they do
not traditionally export their products or technology and thus are not familiar with the EAR;
without a perceived need to understand general export controls, companies may never learn
about deemed exports.

In addition, it appears that small businesses serving as defense contractors are relying on contract
language to identify export control issues or requirements and/or are completely unaware of the
regulations. Specifically, one contractor Defense OIG visited during our interagency review—
which develops pressure and magnetic field sensors for a missile system—had a foreign national
from an EAR-restricted country (South Africa) participate in at least two separate Defense
contracts on a limited basis. Under the first contract, the item involved magnetic field sensors.
According to the Defense Technology Security Administration, these items are controlled under
ECCN 6A006 (magnetometers) for national security and anti- terrorism and would require a
license to South Africa. While the contract contained a prepublication restriction clause—which
could have made the technology subject to export controls—it did not specify that the project
involved export-controlled technologies. The contractor stated they relied on the contract to
identify export-controlled technology and therefore did not consider any of the technology to be
export-controlled.

Under the second contract, the items of concern were shape memory alloys involved in
developing rotary blades. Again, the Defense Technology Security Administration determined
these items are controlled under ECCN 1C002 (metal alloys, metal alloy powder, and alloyed
materials) for national security, nonproliferation, and anti-terrorism and would require a license


        32
            Because applications may contain a request to export more than one technology, this number represents
the total number of requests for this technology from all applications.


                                                       21

U.S. Department of Commerce                                                                 Final Report IPE-16176

Office of Inspector General                                                                            March 2004




to South Africa. The second contract did contain an export control clause33 that stated, the
“information generated in performance of this solicitation and/or contract is subject to export
control by the Arms Export Control Act”; however, there was no reference to the Export
Administration Act. Again, the contractor stated that because the contract did not specifically
prohibit the use of fo reign nationals or identify the technology subject to export controls, they
did not know that the technologies were subject to dual- use export controls and, therefore, did
not seek a deemed export license from BIS for the foreign national for either contract.

Based on conversations with this and other Defense contractors, it appears that they are very
knowledgeable about how to protect classified information from inappropriate disclosure but are
not that knowledgeable about how to deal with unclassified but export-controlled information or
technology.

Finally, as a result of our current review, BIS began to conduct outreach with the academic
community. Specifically, the director for the Deemed Export Division presented a briefing on
deemed exports at the Association of International Educators’ regional conference in November
2003. As a first step, this effort represents a positive attempt at targeting an audience that hosts a
large number of foreign nationals with potential access to controlled technolo gy.

RECOMMENDATION : BIS should establish and implement a strategic outreach plan for deemed
exports that has annual goals and identifies priority industries, Federal agencies, and academic
institutions that are not currently applying for deemed export licenses.



In its written response to our draft report, BIS stated that it has taken a number of actions to
address our recommendation. For instance, BIS stated that it monitors and evaluates the type
and quantity of its deemed export outreach on a quarterly basis to ensure that it targets the
appropriate industry sectors. Specifically, BIS reported that during FY 2004, to date, it has
conducted over 40 outreach activities, including visits to U.S. Government research labs,
universities, small business associations, and foreign student associations. BIS also stated it will
continue to identify priority industries and conduct outreach later this year to small and medium-
sized business and defense contractors to educate these types of companies about deemed export
rules. In addition, BIS stated that it has already targeted outreach in the area of biotechnology by
discussing deemed export policies and procedures with the biotechnology industry and academia.
We are pleased that BIS is exp anding its deemed export outreach program. We request that a
copy of BIS’ written strategic outreach plan—including its proposed outreach efforts for the
remainder of FY 2004—be provided to us as part of the action plan.




         33
           The contract also contained a publication clause that required the contractor to submit and receive
approval from the contracting officer before publishing the results of the research.


                                                         22

U.S. Department of Commerce                                                 Final Report IPE-16176

Office of Inspector General                                                            March 2004





B. 	   The EAR supplemental “Questions and Answers” on deemed exports need
       clarification

The EAR offers supplemental questions and answers to help exporters better evaluate individual
applicability of the deemed export regulations. 34 The supplement is divided into nine wide-
ranging categories:

•	     publication of technology and exports and re-exports of technology that has been or will
       be published;

•	     release of technology at conferences;

•	     educational instruction;

•	     research, correspondence, and informal scientific exchanges;

•	     federal contract controls;

•	     commercial consulting;

•	     software;

•	     availability in a public library; and

•	     miscellaneous.


Although the questions and answers do not cover all scenarios, BIS’ intent was to help potential
license applicants understand how BIS interprets specific circumstances as they relate to deemed
export regulations. However, we found that at least two of the answers provided may be
inaccurate or unclear.

First, Question A(4) from the supplement, which falls under the “publication of technology”
category, discusses whether “prepublication clearance” by a government sponsor (in this case
Energy) would void the “publishability” exemption in the EAR and trigger the deemed export
rule. The answer states “no…the transaction is not subject to the EAR.” However, according to
§734.11 of the EAR, if research is funded by the U.S. government and national security controls
are in place to protect any resulting information, the research is subject to the EAR.
Furthermore, after discussing this issue with senior BIS licensing officials, they agreed that a
prepublication clearance clause in government-sponsored research would trigger the deemed
export rule.

       34
            15 CFR 734, Supplemental No. 1.


                                               23

U.S. Department of Commerce                                                    Final Report IPE-16176

Office of Inspector General                                                               March 2004





Second, Question D(1), which falls under the “research, correspondence, and informal scientific
exchanges” category, discusses whether a license would be required for a foreign graduate
student to “work” in a laboratory. The answer states, “not if the research on which the foreign
student is working qualifies as ‘fundamental research’. . ..” Since allowing scie ntists, engineers,
or students to work in a laboratory may necessitate their “use” of EAR-controlled equipment,
based on this answer, a potential license applicant may logically assume that “use” of controlled
equipment is covered under the fundamental research exemption. Yet, despite the answer given
for Question D(1), BIS officials informed us that while the research performed in a laboratory
may be fundamental and exempt from the EAR, the “use” of controlled equipment is not.

In discussions with BIS officials on these inconsistencies, we were told that the questions and
answers in the supplemental were drafted several years ago by a licensing official no longer
working for the bureau. BIS officials also acknowledged that a review of the questions and
answers is probably in order. While we agree that providing questions and answers in
Supplement No. 1 to Part 734 of the EAR is beneficial to exporters, we believe BIS needs to
review them periodically to ensure they are accurate and up-to-date.

RECOMMENDATION : BIS should clarify and periodically update the deemed export “Questions
and Answers” in Supplement No. 1 to Part 734 of the EAR.



In its written response to our draft report, BIS stated that it would update the question and answer
section in the EAR to provide clarity to the exporting community and government and academic
research laboratories. Specifically, BIS acknowledged the need for further clarification on
Question A(4) and agreed with our assessment that prepublication review by a government
sponsor of research would void the publishability exemption in the EAR.

With regard to Question D(1), BIS acknowledged the need for further clarity on the
interpretation of “use” technology that may be implicated in fundamental research. As such,
BIS’ response stated that it will revise the answer in D(1) to state that a license may be required
if in conducting fundamental research the foreign graduate student needs access to controlled
technology to “use” EAR-controlled equipment.” We request that a copy of the revisions be
provided to us when completed.




                                                 24

U.S. Department of Commerce                                                                 Final Report IPE-16176

Office of Inspector General                                                                            March 2004




III.     BIS Needs a Deemed Export License Compliance Program

Because BIS does not perform on-site inspections or reviews of deemed export license holders to
ensure compliance with license conditions (as it does under its end-use check program35 ),
deemed export license holders are not held accountable for complying with license conditions.
Compliance programs should involve on-site inspections of facilities to determine if the license
holder is complying with specific license conditions. In particular, all potential points of access
to the controlled technology should be reviewed for appropriate safeguards and technology
control plan implementation to ensure compliance with license conditions.

In addition to on-site inspections, the EAR allows BIS to limit a transaction authorized under an
export license by placing conditions on the license itself. This is an important part of the
interagency export license resolution process and offers BIS an additional means of monitoring
certain transactions, such as technology transfers within the United States to foreign nationals
from countries of concern. In fact, we noted a number of deemed export licenses were approved
by Defense with the condition that BIS monitor compliance with the license terms by the license
holder.

However, BIS informed us that it is not monitoring compliance with any deemed export
licenses—including those with conditional approvals from license referral agencies—because it
does not have the resources to perform this function. BIS’ failure to monitor license conditions
could degrade the integrity of the interagency licensing process. For example, licensing referral
agencies that depend on BIS to notify them of negative outcomes of license conditions are
making decisions about future licenses with no information about the license holder’s
compliance with conditions attached to previously issued licenses because no such information
exists. As a result, the same companies are continuously receiving deemed export licenses
regardless of whether they comply with the license conditions.

In an attempt to address this issue, in the summer of 2003 BIS managers met with representatives
of two companies considered to be large deemed export license holders to review each
company’s technology control plan. 36 Although BIS officials talked with company
representatives about how they were implementing their plans, the officials did not test the
effectiveness of the programs to ensure compliance with the license conditions. As a result,
despite the meetings, BIS could not definitively determine the company’s compliance with the
deemed export license conditions.

In response to prior OIG recommendations related to exporter compliance with license
conditions, BIS plans to develop a “license condition enforcement program” in FY 2005.
Reportedly the program will address compliance by export license holders, including deemed

         35
             End-use checks verify the legitimacy of overseas dual-use export transactions controlled by BIS. A pre­
license check validates information on export license applications by determining if an overseas entity is a suitable
party to a transaction involving controlled U.S.-origin goods or technical data. Post-shipment verifications
strengthen assurances that exporters or foreign entities comply with the terms of export licenses by determining
whether goods exported from the U.S. were actually received by the appropriate entity and are being used in
accordance with the license provisions.
          36
             A technology control plan outlines company programs and policies to protect controlled technology.


                                                         25

U.S. Department of Commerce                                                   Final Report IPE-16176

Office of Inspector General                                                              March 2004




exports. However, based on our initial discussions with BIS management, it does not appear that
this program will include any type of on-site verifications or reviews of compliance with the
license conditions. Instead, BIS officials indicated that this program will most likely focus on
reviews of licenses and conditions by headquarters staff to identify “red flags” (e.g., not
complying with a license requirement to send BIS information about the shipment of the goods
within a specified timeframe) that can be referred out to export enforcement agent s for
investigative purposes, rather than targeting companies for compliance reviews.

RECOMMENDATION : BIS needs to develop a compliance program that effectively evaluates
deemed export license holders’ compliance with license conditions. At a minimum, the review
should determine whether:

       �•	     All research, including access to technology, is being performed in accordance
               with license conditions;

       �•	     Deviations to the foreign national’s job responsibilities stay within the technical
               parameters of the license; and,

       �•	     The technology control plan used by the subject U.S. entity accurately and fully
               reflects its practices.




In its written response to our draft report, BIS stated that Export Enforcement would initiate a
pilot post shipment verification (PSV) program on the most sensitive deemed export licenses
issued by BIS. The PSVs will reportedly be conducted by a joint team incorporating both Export
Administration engineers and Office of Export Enforcement agents. The teams will be
responsible for determining compliance with the deemed export license conditions and detecting
any violations. BIS’ plans to re-evaluate the pilot program after 12 months to assess its
effectiveness.

In addition, BIS’ response stated that Export Enforcement is prepared to initiate a small pilot
program involving pre- license checks (PLCs) on new deemed export license applicants. BIS
anticipates that the PLC program will provide assurances before exports are made that the parties
to the transaction know their responsibilities. In addition, BIS believes this program will provide
it with a preview of the company’s internal compliance programs as well as better insight on
whether a deemed license should be issued. As a part of these pilot programs, we encourage BIS
to consider determining whether (1) all research, including access to technology, is being
performed in accordance with license conditions; (2) deviations to the foreign national’s job
responsibilities stay within the technical parameters of the license; and, (3) the technology
control plan used by the subject U.S. entity accurately and fully reflects its practices. Overall,
we believe this end-use check program for deemed exports will meet the intent of our
recommendations once implemented. As such, we request a status of the two pilot programs,
including the number of PLC and PSVs conducted in FY 2004, in BIS’ action plan.


                                                26

U.S. Department of Commerce                                                    Final Report IPE-16176

Office of Inspector General                                                               March 2004




IV.    Deemed Export Control Compliance by Commerce Bureaus is Mixed

As part of conducting follow-up on prior OIG findings and recommendations related to deemed
export compliance by Federal research facilities, we conducted a brief survey at two of
Commerce’s scientific bureaus—the National Institute of Standards and Technology (NIST) and
the National Oceanic and Atmospheric Administration (NOAA). Based on discussions with
senior officials and an overview of security procedures at both agencies, we identified some
potential weaknesses with regard to deemed exports and foreign national visitors. Given the
potential security vulnerabilities identified at these two bureaus, we offer our findings related to
foreign national visitor access in an addendum to this report.

Based on the security vulnerabilities we identified at these two bureaus, we also recommend that
the Department’s Office of Security enforce—including conducting periodic on-site security
reviews—its security policies related to foreign national visitors or guest researchers in
Commerce facilities and hold bureaus accountable for compliance with those policies.

A.     NIST’s deemed export control policies and procedures need to be strengthened

An agency of the Department of Commerce’s Technology Administration, NIST strives to
strengthen the U.S. economy and improve the quality of life by working with industry to develop
and apply technology, measurements, and standards. It carries out this mission through four
major programs:

           •	 The NIST Measurement and Standards Laboratories aid U.S. industry by
              providing technical leadership for vital components of the nation's technology
              infrastructure including electrical engineering, physics, information technology
              and weights and measures; and

           •	 The Advanced Technology Program, which accelerates the development of
              innovative technologies for broad national benefit through research and
              development partnerships with the private sector.

           •	 The Manufacturing Extension Program provides technical and business assistance
              to smaller manufacturers through a nationwide network of service centers with
              access to specialists and outside consultants.

           •	 The Malcolm Baldrige Program aims to promote and recognize organizational
              performance excellence by enhancing the competitiveness, quality, and
              productivity of U.S. organizations for the benefit of all residents.


Through its Foreign Guest Researcher Program, NIST offers scientists from around the world the
opportunity to work collaboratively with its scientists on these programs. Although the majority
of activities NIST is involved with may fall under the area of fundamental research, we are
concerned about how NIST safeguards its controlled equipment from its foreign national visitors


                                                 27

U.S. Department of Commerce                                                                Final Report IPE-16176

Office of Inspector General                                                                           March 2004




and researchers. Again, as discussed in Chapter One of this report, the technology associated
with the use of controlled equipment—even in the context of fundamental research—is not
exempt from deemed export controls. We discuss this issue and others involving NIST’s
deemed export efforts below, and the issue of clearances and access controls related to foreign
nationals is in the report’s addendum which has limited distribution.

EAR-Controlled Equipment

As a result of our March 2000 report, NIST issued guidance to its employees concerning export
controls and foreign national access to controlled technologies. However, this guidance does not
consider the applicability of deemed export controls associated with the technology for the “use”
of controlled dual- use equipment.

During the course of our review, we identified at least one EAR-controlled commodity—a 5-axis
machine tool37 —located at NIST’s Manufacturing Engineering Laboratory (MEL) machine shop
in Gaithersburg, Maryland (see figure 5). Machine tools cut and form metals or other hard
materials with varying degrees of precision. They are essential to civilian industry, but they have
a range of military industrial applications as well. Specifically, they are useful for manufacturing
many types of conventional weapons and vehicles; building nuclear weapons; manufacturing
high-speed centrifuges that can enrich uranium to go into nuclear weapons; and making precision
missile parts. According to the CCL, machine tools are controlled under ECCN 2B001, while
the “technology” for the (1) “use” of the equipment or (2) “software” is controlled under ECCN
2E201. As such, this piece of equipment is controlled for national security, nuclear
nonproliferation, and anti-terrorism reasons and requires a license to export it to countries of
concern. Under the current regulations, it should be noted that a license application involving
the export of this equipment to a terrorist-supporting country would most likely be denied.

According to NIST, the only two individuals who are authorized to “operate” the 5-axis machine
are NIST employees as well as U.S. citizens and both utilize private passwords to operate the
machine. While MEL hosts 45 foreign guest researchers at any given time (including a foreign
national from a terrorist-supporting country whose original assignment included participating in
“. . . experimental research using recently acquired equipment at NIST for the study of
machining process metrology . . . and develop a plan to conduct additional tests and
recommendations for the optimized process conditions.”), 38 based on discussions with NIST
officials, no foreign national from a country of concern conducted research involving this
machine. However, NIST informed us that the machine shop is open during normal business
hours to all MEL researchers—including guest researchers. Furthermore, during our tour of the
machine shop, we noted the 5-axis machine tool’s operations manual lying in the open on a tool
cabinet across from the machine.



         37
            Although this machine tool was manufactured in Germany, it is still subject to U.S. export control laws
and regulations.
        38
           The foreign national from the terrorist-supporting country is no longer at NIST and reportedly never
began his research while there.


                                                         28

U.S. Department of Commerce                                                  Final Report IPE-16176

Office of Inspector General                                                             March 2004




Deemed Export Training

NIST informed us that it conducts deemed export control training for all of its employees.
Specifically, the NIST Chief Counsel told us that every NIST employee participated in one of 16
training sessions held between 2000 and 2001. These training sessions covered various topics,
such as ethics and deemed exports. In addition, we were told that all new NIST employees
receive new employee training, which may cover deemed export controls. Finally, NIST
informed us that the materials presented at the above sessions are included on its intranet. Thus,
NIST officials believe all of its employees understand the constraints imposed by the deemed
export control regulations. However, as we noted above, NIST officials were not aware that the
technology associated with the “use” of controlled equipment is subject to the EAR and,
therefore, this information was not included in any of the training sessions involving deemed
exports.

RECOMMENDATIONS : NIST should do the following:

       �•	     Review the equipment on hand in the labs to identify EAR-controlled equipment;
               interview managers of labs that have controlled equipment to establish what
               foreign nationals (if any) use or have access to the equipment; and work with BIS
               to develop an effective means to identify when a deemed export license might be
               required.

       �•	     Conduct periodic deemed export control training, including coverage of the
               transfer of technology associated with the “use” of controlled equipment, for all
               NIST employees that work with EAR-controlled technology and/or equipment.

       �•	     Ensure that NIST management reviews the subject of NIST’s research “upfront”
               to determine its sensitivity and applicability to deemed export controls.

       �•	     Work with BIS to determine if its Editorial Review Board process voids the
               fundamental research exemption in the EAR and seek appropriate deemed export
               licenses, as necessary.



In its written response to our draft report, NIST stated that it is currently in the process of
inventorying its EAR-controlled equipment. Once NIST completes its inventory, it will need to
identify what foreign nationals use or have access to the EAR-controlled equipment and work
with BIS to develop an effective means to identify when a deemed export license is required.
Once completed, we would appreciate receiving a copy of the results of this review.

In addition, NIST’s response did not address what action it would take with regard to our
recommendation concerning the need for periodic deemed export control training for its
employees.




                                                30

U.S. Department of Commerce                                                   Final Report IPE-16176

Office of Inspector General                                                              March 2004




Furthermore, while NIST’s response did not specifically address our recommendation to ensure
that NIST researchers review the subject of their research “upfront” to determine its sensitivity
and applicability to deemed export controls, it stated that it would be more effective if our
recommendation required NIST management to review the subject research “upfront.” We
agree. Therefore, we revised our recommendation and state that NIST should ensure that its
managers review the subject of NIST research “upfront” to determine its sensitivity and
applicability to deemed export controls.

Finally, with regard to our recommendation concerning its Editorial Review Board, NIST
disagreed with our finding that its new procedure—which requires a prepublication clearance for
all materials to identify sensitive material—may disqualify it from using the fundamental
research exemption in the EAR. Specifically, NIST’s response stated that based on BIS’
definition of “fundamental research,” if the intent of NIST’s research is to publish and widely
disseminate the results, then its work is fundamental, regardless of whether or not it pre-reviews
the results. The response further stated that if NIST did not intend to publish, it would not send
the document for review. While NIST’s prepublication review process may consider factors
other than national security when reviewing a publication for public release, it is our
understanding that one of the original purposes of the prepublication review—per the White
House guidance—was to safeguard U.S. government information regarding weapons of mass
destruction and to prevent the public release of such information. Again, it was not clear to us
during our review whether NIST’s prepublication review process nullified the fundamental
research exemption. As we stated in our draft report, we discussed this issue with BIS officials,
who indicated they would need more information on NIST’s process before making a decision as
to whether it voids the fundamental research exemption. In response to our draft report, BIS
indicated that it was willing to work with NIST on this issue. Therefore, we reiterate our
recommendation that NIST work with BIS to determine if its Editorial Review Board process
voids the fundamental research exemption in the EAR and seek appropriate deemed export
licenses, if necessary.

It should also be noted that NIST’s written response took issue with some of our statements in
the draft report. For instance, NIST raised several concerns with our statement in the draft report
that it is unclear what foreign nationals may have access to the [5-axis] machine, or its operations
manual, given the fact that the machine shop that houses both is ‘open’ to all lab employees and
its guest researchers.

NIST stated that based on the current BIS definition of “use,” no foreign nationals from countries
of concern have ever “used” the 5-axis machine tool. While our draft report does acknowledge
that only two individuals—who are both NIST employees and U.S. citizens—reportedly
“operate” the 5-axis machine, our concern mainly focused on the transfer of technology
associated with the “use” of the machine to the foreign guest researchers at MEL. As such, a
foreign guest researcher does not technically have to “use” the machine for a transfer of the
controlled technology to take place. According to the EAR, the “use” control—as it relates to
deemed exports—is based on the transfer of technology associated with the “use” of EAR-
controlled equipment. As such, while the transfer of technology can occur through physically
“operating” this machine, it might also be accomplished through (1) conducting research “on”
the machine’s capabilities, or (2) reading the operations manual.


                                                31

U.S. Department of Commerce                                                           Final Report IPE-16176

Office of Inspector General                                                                      March 2004




export licensing requirements. As stated in our September 2001 39 follow- up report, the National
Environmental Satellite, Data, and Information Service has formed an Export Action Team to
review incoming export actions and ensure that line offices are staffed for export compliance,
develop an International Visitor Policy with comprehensive guidance to include export controls,
and develop an export control awareness and training program. At the beginning of our current
review, we learned that no action had been taken to address our recommendation for NOAA’s
other line offices. Instead, agency officials informed us that the majority of its work is
fundamental research and, therefore, not subject to deemed export controls. However, based on
our discussions with NOAA’s Deputy Assistant Secretary for International Affairs, it seems
unlikely that NOAA officials considered the “use” of controlled equipment when rendering this
decision.

In August 2003, NOAA and BIS officials finally met to discuss deemed export regulations.
Representatives from all of NOAA’s line offices were present and several expressed an interest
in having BIS review their programs. BIS offered to work with the individual line offices, on
request, to ensure that technical information or know-how released to foreign nationals is in
compliance with Federal export licensing requirements.

In November 2003, after further discussions between OIG and senior NOAA officials, the
Deputy Assistant Secretary for International Affairs was tasked with developing NOAA’s
deemed export control policies and procedures. In addition, the Deputy Assistant Secretary
indicated that NOAA facilities might have some types of controlled technology or equipment.
At the time of our draft report, the Deputy Assistant Secretary informed us that he was in the
process of developing formalized and extensive policies and procedures for NOAA to address
these issues. We encourage NOAA to work with BIS on this effort and look forward to
reviewing the new policies when drafted.

Training

We were unable to identify any deemed export training programs for NOAA employees (with
the exception of one at the National Environmental Satellite, Data, and Information Service).

RECOMMENDATIONS : NOAA should do the following:

        �•      Create and implement an agency-wide deemed export policy and procedures.

        �•      Review its equipment inventory to determine (1) what commodities are EAR-
                controlled, (2) what foreign nationals have access to those commodities and
                whether improved access controls are needed, and (3) whether a deemed export
                license may be required.


        39
           Annual Follow-Up Report on Previous Export Control Recommendations, As Mandated by the National
Defense Authorization Act for Fiscal Year 2000, U.S. Department of Commerce Office of Inspector General, IPE­
14246-2, September 2001.



                                                     33

U.S. Department of Commerce                                                 Final Report IPE-16176

Office of Inspector General                                                            March 2004




       �•	     Establish an employee training program that effectively disseminates the
               necessary deemed export control provisions to all NOAA employees that work
               with EAR-controlled technology and/or equip ment.

       �•	     Review NOAA research and NOAA-sponsored research to determine the
               applicability of deemed export controls.



In its written response to our draft report, NOAA stated that it agreed with all of our
recommendations. First, with regard to creating and implementing an agency-wide deemed
export control policy and procedures, the response stated that NOAA is in the process of
developing formalized policies and procedures to address deemed export controls. Specifically,
NOAA reported that it is revising a draft version of its new policy and procedures that the OIG,
as well as OSY and BIS, provided comments on. It further stated that discussions between
NOAA and OSY confirm that the development and implementation of NOAA’s policy and
procedures in this area should be done in close coordination with OSY and take into
consideration OSY’s pending Departmental Administrative Order pertaining to the access to
department facilities by foreign national visitors. We agree with NOAA and look forward to
reviewing its new deemed export control policy and procedures when completed.

Second, with regard to reviewing its equipment to identify what is EAR-controlled and what
foreign nationals have access to it, NOAA’s response stated that although it maintains an
automated database of all NOAA-owned equipment costing $5,000 or more, in addition to all
equipment defined by the Department as “sensitive,” it does not presently maintain an inventory
of those commodities that may be EAR-controlled or sub ject to a deemed export license. As
such, NOAA stated that it is working with BIS to identify how best to inventory commodities
subject to EAR-controls and/or deemed export licensing provisions, and to ensure that
appropriate measures are incorporated within NOAA’s deemed export control policy and
procedures to address inventory, license, and access issues.

Third, with regard to establishing an employee training program that deals with deemed export
controls, NOAA’s response stated that training for all NOAA employees that work with EAR-
controlled technology and/or equipment has been specified in the draft NOAA deemed export
control policy and procedures and an appropriate training program will be established upon its
implementation.

Fourth, with regard to our recommendation that NOAA review its research, as well as, NOAA-
sponsored research, to determine the applicability of deemed export controls, NOAA’s response
stated that provisions for the review of NOAA research are incorporated within NOAA’s draft
deemed export control policy and procedures. In addition, NOAA stated that it is currently
reviewing the applicability of EAR deemed export controls to NOAA sponsored research.




                                               34

U.S. Department of Commerce                                                   Final Report IPE-16176

Office of Inspector General                                                              March 2004





In its written response to our draft report, the Department’s Office of the Chief Financial Officer
and Assistant Secretary for Administration stated that it has completed a draft Department
Administrative Order (DAO) related to, among other things, foreign national visitors and guest
researchers. In addition, it has developed a new risk assessment program, scheduled for
implementation before June 2004, which includes on-site assessments to mitigate risks
associated with espionage. We look forward to reviewing a copy of the new Department
Administrative Order when completed. In addition, we would appreciate receiving a copy of the
risk assessment program plan when it is finalized.




                                                35

U.S. Department of Commerce                                                   Final Report IPE-16176

Office of Inspector General                                                              March 2004




                              SUMMARY OF RECOMMENDATIONS

We recommend that the Under Secretary for Industry and Security ensure that the
following actions are taken:

1.	    Modify the definition of “use” in the EAR in order to help licensing and enforcement
       officials better implement and enforce deemed export controls associated with the
       technology for the use of controlled equipment (see page 14).

2.	    Inform the U.S. academic community, industry, and Federal agencies of the deemed
       export controls associated with the technology for the use of EAR-controlled equipment
       by foreign nationals (see page 14).

3.	    Amend BIS’ current policy to require U.S. entities to apply for a deemed export license
       when a foreign national employee or visitor was born in a country where the technology
       transfer in question is EAR-controlled (see page 16).

4.	    Reevaluate its approval of deemed export licenses for foreign nationals from Iran and
       Iraq to ensure such approvals are consistent with current law and deemed export control
       licensing policies and procedures (see page 17).

5.	    Establish and implement a strategic outreach plan for deemed exports that has annual
       goals and identifies priority industries, Federal agencies, and academic institutions that
       are not currently applying for deemed export licenses (see page 20).

6.	    Clarify and periodically update the deemed export “Questions and Answers” in
       Supplement No. 1 to Part 734 of the EAR (see page 23).

7.	    Develop a compliance program that effectively evaluates deemed export license holders’
       compliance with license conditions (see page 25). At a minimum, the review should
       determine whether:

       a.	 All research, including access to technology, is being performed in accordance with
           license conditions;
       b.	 Deviations to the foreign national’s job responsibilities stay within the technical
           parameters of the license; and,
       c.	 The technology control plan used by the subject U.S. entity accurately and fully
           reflects its practices.

                                               ****

We recommend that the Director for NIST ensure that the following actions are taken:

1. 	   Review NIST’s equipment on hand in the labs to identify EAR-controlled equipment,
       interview managers of labs that have controlled equipment to establish what foreign
       nationals (if any) use or have access to the equipment, and work with BIS to develop




                                                36

U.S. Department of Commerce                                                  Final Report IPE-16176

Office of Inspector General                                                             March 2004


       an effective means to identify when a deemed export license might be required
       (see page 27).

2.	    Conduct periodic deemed export control training, including coverage of the transfer of
       technology associated with the “use” of controlled equipment, for all NIST employees
       that work with EAR-controlled technology and/or equipment (see page 27).

3.	    Ensure that NIST management reviews the subject of NIST research “upfront” to
       determine its sensitivity and applicability to deemed export controls (see page 27).

4.	    Work with BIS to determine if NIST’s Editorial Review Board process voids the
       fundamental research exemption in the EAR and seek appropriate deemed export
       licenses, as necessary (see page 27).

                                              ****

We recommend that the Under Secretary for Oceans and Atmosphere ensure that the
following actions are taken:

1. 	   Create and implement agency-wide export control policies and procedures relating to
       foreign national access to EAR-controlled technology (see page 32).

2. 	   Review its equipment inventory to determine (see page 32):

       a.	 What commodities are EAR-controlled.
       b.	 What foreign nationals have access to those commodities and whether improved
           access controls are needed.
       c.	 Whether a deemed export license may be required.

3.	    Establish an employee training program that effectively disseminates the necessary
       deemed export control provisions to all NOAA employees that work with EAR-
       controlled technology and/or equipment (see page 32).

4.	    Review NOAA research and NOAA-sponsored research to determine the applicability of
       deemed export controls (see page 32).

                                              ****

We recommend that the Chief Financial Officer and Assistant Secretary for
Administration ensure that the following action is taken:

1. 	   Enforce—including conducting periodic on-site security reviews—the Department’s
       security policies related to foreign national visitors or guest researchers and hold
       Commerce bureaus accountable for compliance with those policies (see pages 27 and 32).




                                               37

U.S. Department of Commerce                                      Final Report IPE-16176

Office of Inspector General                                                 March 2004




                                APPENDICES
                                                                       APPENDIX A

                               List of Acronyms

BIS	                          Bureau of Industry and Security
CCL                           Commerce Control List
CFR	                          Code of Federal Regulations
CIA 	                         Central Intelligence Agency
DTSA	                         Defense Technology Security Administration
EAA	                          Export Administration Act
EAR 	                         Export Administration Regulations
ECCN	                         Export Control Classification Number
FBI	                          Federal Bureau of Investigation
FY	                           Fiscal Year
MEL	                          Manufacturing Engineering Laboratory
NSC	                          National Security Council
NIST	                         National Institute of Standards and Technology
NOAA	                         National Oceanographic and Atmospheric Administration
NSDD	                         National Security Decision Directive
OIG	                          Office of Inspector General
OSY	                          Office of Security (Department of Commerce)
P.L.	                         Public Law
U.S.C.	                       United States Code




                                       38

U.S. Department of Commerce                                                Final Report IPE-16176

Office of Inspector General                                                           March 2004




                                                                                 APPENDIX B

                              NDAA Reports, Fiscal Years 2000-2003

   •	 Improvements Are Needed in Programs Designed to Protect Against the Transfer of
      Sensitive Technologies to Countries of Concern, U.S. Department of Commerce
      Office of Inspector General, IPE-12454-1, March 2000. Commerce OIG evaluated the
      following Bureau of Industry and Security (BIS) activities aimed at helping to prevent the
      illicit transfer of sensitive technology: (1) deemed export controls, (2) the Visa
      Application Review Program, and (3) the Committee on Foreign Investment in the
      United States. This evaluation was part of an interagency OIG review of each respective
      agency’s export controls and counterintelligence measures.

   •	 Management of Commerce Control List and Related Processes Should be Improved,
      U.S. Department of Commerce Office of Inspector General, IPE-13744, March
      2001. Commerce OIG reviewed BIS’ policies and procedures for the design,
      maintenance, and application of the Commerce Control List as part of the interagency
      OIG review of the Commerce Control List and the U.S. Munitions List.

   •	 BXA Needs to Strengthen Its ECASS Modernization Efforts to Ensure Long-Term
      Success of the Project, U.S. Department of Commerce Office of Inspector General,
      IPE-14270, February 2002. Commerce OIG’s evaluation focused on BIS’ efforts to
      modernize its aging Export Control Automated Support System (ECASS) as part of an
      interagency review of the automated export licensing systems maintained by Federal
      licensing agenc ies to determine how the systems interact and whether it is feasible to
      develop a single Federal automated export licensing network or other alternatives.

   •	 Improvements Are Needed to Better Enforce Dual-Use Export Control Laws, U.S.
      Department of Commerce Office of Inspector General, IPE-15155, March 2003.
      Commerce OIG evaluated the adequacy and effectiveness of BIS’ export enforcement
      program for dual- use commodities (goods and technologies that have both civilian and
      military applications) as part of an interagency review of the Federal government’s export
      enforcement efforts.




                                              39

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004




                                          APPENDIX C





                              40

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              41

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              42

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              43

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004




                                          APPENDIX D





                              44

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              45

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              46

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              47

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              48

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              49

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004




                                          APPENDIX E





                              50

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              51

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004





                              52

U.S. Department of Commerce         Final Report IPE-16176

Office of Inspector General                    March 2004




                                          APPENDIX F





                              53

                                Legislative Authority

The Office of Inspector General conducted this program evaluation in accordance with
the Quality Standards for Inspections issued by the President’s Council on Integrity
and Efficiency, and under authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated May 22, 1980, as amended.

Program evaluations are reviews the OIG undertakes to achieve one or more of the
following purposes:
     •	 Provide agency managers with timely information about operations. A
        primary goal of a program evaluation is to encourage effective, economical,
        and efficient operations.
     •	 Identify or prevent fraud, waste, and abuse in federal programs. By asking
        questions, identifying problems, and suggesting solutions, the OIG helps
        managers determine how best to quickly address issues identified during the
        review.
     •	 Highlight effective programs or operations, particularly if their success may
        be useful or adaptable for agency managers or program operations elsewhere.

                                 Acknowledgments

Major contributors to this report were Jennifer Nobles, Eleazar Velazquez, and Erin
Reuther, Office of Inspections and Program Evaluations.
